December 22, 2009

PRITHA N. MEHRA
VICE PRESIDENT, BUSINESS MAIL ENTRY & PAYMENT TECHNOLOGIES

SUBJECT: Audit Report – Fiscal Year 2009 Financial Installation Audit –
         Business Mail Entry Units (Report Number FF-AR-10-051)

This report summarizes the results of financial audits we conducted at 96 statistically
selected business mail entry units (BMEU) for fiscal year (FY) 2009 (Project Number
09BD002FF000). The objectives of our audits were to determine whether the financial
transactions of field operations were reasonably and fairly presented in the accounting
records and whether internal controls were in place and effective. We conducted these
audits in support of the audit of the U.S. Postal Service’s financial statements. The
Postal Reorganization Act of 1970 requires annual audits of the U.S. Postal Service’s
financial statements. See Appendix A for additional information about this audit.

Conclusion

Based on the items we reviewed at 96 BMEUs, financial transactions were reasonably
and fairly presented in the accounting records and, generally, the internal controls we
examined were in place and effective. However, we identified five locations where
major controls were not effective.1 In addition, we identified various internal control and
compliance issues related to managing customer accounts and eligibility; accepting,
verifying, and clearing the mail; and monitoring Special Postage Payment Systems
(SPPS). Although internal controls were generally in place and effective, a significant
deficiency continues to exist related to the acceptance of mail.2 We reported similar
mail acceptance and other compliance issues in prior fiscal years’ reports.



1
  Overall, internal controls were not in place and effective at the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx, sites.
Internal controls were in place except in the areas of monitoring customer trust accounts and accepting business mail
at the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx, sites.
2
  This is the third consecutive fiscal year the significant deficiency has been reported. Ernst & Young, LLP, the
independent public accounting firm contracted to express an opinion on the Postal Service’s financial statements,
reported this as a significant deficiency in its Reports on Internal Control Over Financial Reporting and on
Compliance and Other Matters Based on an Audit of Financial Statements Performed in Accordance with
Government Auditing Standards (November 14, 2007, November 14, 2008, and November 16, 2009). A significant
deficiency is a control deficiency or combination of control deficiencies that adversely affects the entity’s ability to
initiate, authorize, record, process, or report financial data reliably in accordance with generally accepted accounting
principles such that there is more than a remote likelihood that a misstatement of the entity’s financial statements that
is more than inconsequential will not be prevented or detected by the entity’s internal controls.
Fiscal Year 2009 Financial Installation Audit –                                                            FF-AR-10-051
 Business Mail Entry Units


Management concurred with the recommendations in our FY 2007 report3 and, in
response, developed a nationwide corrective action plan with measurable goals to
correct conditions related to mail acceptance and verification procedures. Although this
significant deficiency was not completely remediated in FY 2009, the Postal Service has
made progress to correct the deficiency and to comply with future Sarbanes-Oxley
(SOX) Act of 2002 requirements.4 Management anticipates a reduction in the
occurrence of these issues once key financial reporting controls are in place and fully
implemented.

Appendix B lists the sites we reviewed, and Appendix C lists the control deficiencies
reported for FYs 2007-2009 and the statistical projections for the FY 2009 reported
nationwide deficiencies.5

Additionally, we made recommendations to district management addressing the control
and compliance issues at each installation, reported $4.1 million in monetary and
$727,139 in non-monetary impacts, and provided quarterly reports to management on
the status of our results. District management’s comments were responsive to our
findings and recommendations and corrective actions should resolve the issues
identified at these individual installations. This year, we also made three referrals to
the U.S. Postal Service Office of Inspector General (OIG) Office of Investigations for
situations that warranted further examination.

We changed the audit objective for our FY 2010 financial installation audits to evaluate
only the key financial reporting controls consistent with the criteria developed for
evaluating SOX compliance. We identified seven key financial reporting controls related
to overrides, negative balances, inactive accounts and refunds, master trust
reconciliation, missing Periodicals statements, postage statement completion and
processing, and mail acceptance and verifications.

Mail Acceptance and Verification Procedures Were Not Followed

Our audits at 96 BMEU sites continued to report that Postal Service personnel did not
always follow mail acceptance and verification procedures, complete and process
postage statements timely, test and calibrate scales, conduct Mail Evaluation
Readability Lookup INstrument (MERLIN) verifications, and close inactive accounts.
Specifically:

   During our mail observations at BMEUs and detached mail units (DMU),6 we noted
    mailing personnel did not always follow the required acceptance, verification, and

3
  Fiscal Year 2007 Financial Installation Audit – Business Mail Entry Units (Report Number FF-AR-08-131, dated
March 19, 2008).
4
  Public Law 107-204, 11 Stat 745.
5
  Of the 96 statistically selected sites, 84 had internal control issues, seven did not have any conditions that materially
affected the reasonableness or fairness of the reported financial data, three had overall ineffective controls, and two
had ineffective controls over customer accounts and mail acceptance.
Fiscal Year 2009 Financial Installation Audit –                                                         FF-AR-10-051
 Business Mail Entry Units


    clearance procedures for mailings.7 Although we observed various noncompliance
    issues related to this process, the most significant issue related to Periodicals not
    being verified at BMEUs. For example, units often received Periodicals mailings
    during non-business hours, and these mailings were allowed to enter the mailstream
    without verification because of their time-sensitive nature. We continued to report
    this issue throughout FY 2009, because policy requires Periodicals to receive an
    initial verification and does not make an exception for publications delivered during
    non-business hours.

   Employees did not always properly complete or post statements to customer
    accounts in a timely manner.8

   Employees did not always properly test or calibrate scales used to weight verify the
    mail.9

   Employees did not always use the random generator selection list or MERLIN
    worksheets for selecting trays of mail to verify. In addition, employees did not
    always perform MERLIN verifications at the proper frequencies.10

   Unit employees did not properly close or refund balances in all cases for inactive
    business mail or Periodicals11 advance deposit accounts.12

Postal Service Corrective Actions

The Postal Service developed and implemented a detailed corrective action plan in
response to a recommendation made in our FY 2007 BMEU Capping Report and the
related significant deficiency. In particular, Business Mail Entry & Payment
Technologies and Finance personnel created a cross-functional team to identify and
implement process changes to strengthen internal controls and to develop and
distribute related training and communication materials. Throughout FY 2009, the
Postal Service continued to make improvements as it positions itself to comply with
SOX and financial reporting requirements. Specifically:

        Business Mail Acceptance (BMA), under Business Mail Entry & Payment
         Technologies, enhanced PostalOne! and Microstrategy features and capabilities
         related to inactive accounts, postage statement completion and processing,

6
  A DMU is an area in a mailer’s facility where postal employees perform mail verification, acceptance, dispatch, and
other postal functions.
7
  Handbook DM-109, Business Mail Acceptance, Chapters 3 and 5, January 2009.
8
  Handbook DM-109, Chapters 3 and 5.
9
  Handbook DM-109, Sections 2-1.3 and 2-3.2(d).
10
   Handbook DM-109, Section 3-5.1.1.
11
   These inactive Periodicals accounts were at additional entry sites. An additional entry is a post office other than
the office of original entry where a publisher is authorized to mail a Periodicals publication.
12
   Handbook F-101, Field Accounting Procedures (FAP), Section 16-7, October 2009 and Domestic Mail Manual
(DMM) 300, Mailing Standards for the U.S. Postal Service, Section 707.30.3.3, November 29, 2009.
Fiscal Year 2009 Financial Installation Audit –                                 FF-AR-10-051
 Business Mail Entry Units


        negative balances, and overrides. BMA also plans additional updates to
        PostalOne! in March 2010 to improve the mail acceptance process including a
        new Bypass Mail Log Report.

       Area and district managers are using various ad hoc reports and other
        communications to monitor field performance.

       Financial Control and Support, under SOX, conducted field reviews to identify
        root causes for noncompliance with internal controls for processing postage
        statements correctly and timely. The team also developed additional reports to
        assist managers in monitoring compliance with established procedures.

       BMA continuously updated Handbook DM-109 and provided management
        instructions to clarify acceptance procedures and improve consistency.

       BMA provided field staff various web-based, video, and classroom training
        related to mail acceptance and verification procedures.

       BMA recently initiated a policy change to eliminate verifications of time sensitive
        Periodicals that meet low-risk criteria. This policy amended current acceptance
        and verification procedures for local newspaper Periodicals that have been
        authorized to enter the mailing at delivery facilities during non-business hours so
        that they can be processed for timely delivery. BMA also plans to update the
        verification process to ensure Periodicals mailings not meeting the low-risk
        criteria are verified.

       BMA developed a new concept known as the Lean Mail Acceptance Process
        (LMAP) that applies Six Sigma and lean principles to the acceptance and
        verification of mail in BMEUs. LMAP was designed to optimize configuration
        (including space for staging mail not yet verified); use placards when the mail
        arrives at the site and when it enters the mailstream; follow the “First In, First
        Out” philosophy; and rely on a team/triage approach (as opposed to one clerk
        doing it all). Currently, the Postal Service’s SOX Group is reviewing the process
        to ensure all necessary controls are in place.

Our audits at 88 units in the first three quarters did not provide any evidence of
improvement in the mail acceptance and verification area. However, our testing of the
last eight units indicated some improvement occurred late in the fiscal year. We will
continue to assess the Postal Service’s progress in achieving and fully implementing
these corrective actions. As we are not making recommendations in this report,
management determined there was no need to provide formal comments.
Fiscal Year 2009 Financial Installation Audit –                            FF-AR-10-051
 Business Mail Entry Units


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact John G. Wiethop, director,
Field Financial-Central, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Joseph Corbett
    Thomas G. Day
    Vincent H. DeVito, Jr.
    Dean J. Granholm
    Maura Robinson
    Julie S. Moore
    Steven R. Phelps
    Douglas G. Germer
    Steven J. Nickerson
    Sally K. Haring
Fiscal Year 2009 Financial Installation Audit –                                                      FF-AR-10-051
 Business Mail Entry Units


                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The OIG conducts field financial audits at revenue-generating units such as BMEUs.
We conduct these audits in support of the independent public accounting firm’s overall
audit opinion on the U.S. Postal Service’s financial statements.

BMEUs are established for authorized mailers to present business mailings. The Postal
Service requires mailers to properly prepare all mailings, take them to an approved
BMEU, and pay for them before they enter the mailstream, unless otherwise authorized
by the Pricing and Classification Service Center located in New York, NY.

Most mailings entered at BMEUs are presorted and receive a discounted rate.
Presorting mail is a work-sharing incentive that offers discounted postage rates to
customers in exchange for performing a portion of the work associated with mail
processing. Unless mailers properly prepare business mailings for the discounts
claimed, the Postal Service incurs increased processing costs.

The PostalOne! system is the Postal Service’s primary system for recording business
mail and Periodicals transactions. The PostalOne! system allows users to enter
postage statements, deposits, and other financial transactions; and to retrieve reports
necessary to manage the daily business of their units. It also allows customers to
submit postage statements and other information to the Postal Service through a web-
based process. In addition, the Postal Service implemented a national Business Mailer
Support database to monitor SPPS at all units. The Postal Service continuously
updates the data to enhance oversight and effectiveness in this area.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audits were to determine whether the financial transactions of field
operations were reasonably and fairly presented in the accounting records and whether
internal controls were in place and effective.

To accomplish our objectives, we conducted unannounced audit fieldwork from October
2008 through September 2009 at 96 statistically selected sites that represented
approximately $3.5 billion in revenue for FY 2008.13 We randomly selected and
reviewed business mail and Periodicals postage statements generated for specific
reporting periods during FY 2009.

We also reviewed authorizations for Periodicals publications. We observed mail
acceptance, verification, and clearance processes and reviewed SPPS in effect at each
BMEU. In addition, we reviewed operations at associated DMUs.

13
     We obtained the FY 2008 operating revenue from the Financial Performance Report in the Accounting Data Mart.
Fiscal Year 2009 Financial Installation Audit –                                         FF-AR-10-051
 Business Mail Entry Units



We traced recorded financial transactions to and from supporting documentation. We
did not perform a reliability assessment of the automated systems; however, we
determined that automated data used for this report was reliable by verifying automated
records to source documents. We used Postal Service instructions, manuals, policies,
and procedures as criteria to evaluate internal controls and data reliability. We also
evaluated whether management implemented the internal control structure over the
financial reporting and the safeguarding of assets as designed. We interviewed
supervisors and employees and observed operations at the Postal Service sites.

We conducted this audit from October 2008 through December 2009 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed the results of our
audit with management on December 10, 2009.

PRIOR AUDIT COVERAGE

We compared findings from the same sites audited during the past 3 years with the
current sites to determine whether repeat deficiencies existed. We reported the status
of the recommendations in each of the applicable installation reports issued.
Additionally, we issued five high-risk reports that assessed nation- and district-wide
performance and three headquarters reports that summarized our installation-level
audits for FYs 2006 through 2008. Many of the findings identified in these reports still
continue and are addressed in this audit report as well.

                                           Final                  Non-
                        Report            Report    Monetary    Monetary
  Report Title          Number             Date      Impact      Impact          Report Results
Fiscal Year 2009     FF-AR-09-226         9/30/09    $147,274      N/A     Our audit disclosed
– Negative                                                                 master trust accounts at
Master Trust                                                               39 units erroneously
Account                                                                    showed negative
Balances                                                                   balances totaling
                                                                           $1.58 million because of
                                                                           improper accounting
                                                                           entries and errors that
                                                                           occurred when units
                                                                           converted to the
                                                                           PostalOne! system.
Fiscal Year 2009 Financial Installation Audit –                                          FF-AR-10-051
 Business Mail Entry Units


                                           Final                  Non-
                        Report            Report    Monetary    Monetary
  Report Title          Number             Date      Impact      Impact           Report Results
Fiscal Year 2009     FF-AR-09-225         9/30/09     $89,274    $471,356   We identified internal
Connecticut                                                                 control and compliance
District                                                                    issues at BMEUs related
Financial Risk                                                              to entering postage
Audit                                                                       statements, closing
                                                                            inactive accounts, and
                                                                            monitoring PostalOne!
                                                                            overrides.
Northland            FF-AR-09-224         9/28/09      $3,664   $146,096    We identified issues
District –                                                                  related to postage
Business Mail                                                               statements not entered
Entry Financial                                                             timely to PostalOne!,
Risk                                                                        inactive customer deposit
                                                                            accounts not closed, and
                                                                            Periodicals verifications
                                                                            not performed.
Fiscal Year 2009     FF-AR-09-221         9/17/09   $123,560    $108,182    District management did
Kentuckiana                                                                 not effectively monitor all
District Business                                                           cancelled and inactive
Mail Entry Unit                                                             advance deposit
Financial Risk                                                              accounts, postage
Audit                                                                       statement processing, and
                                                                            PostalOne! system
                                                                            overrides.
Fiscal Year 2009     FF-AR-09-200         7/24/09   $166,094      $96,750   We identified internal
Phoenix                                                                     control and compliance
Financial Risk                                                              issues related to inactive
Audit                                                                       customer trust accounts
                                                                            and value-added refunds.
Fiscal Year 2009 Financial Installation Audit –                                       FF-AR-10-051
 Business Mail Entry Units




                                            Final                 Non-
                          Report           Report    Monetary   Monetary
   Report Title           Number            Date      Impact     Impact        Report Results
Capping Reports
Fiscal Year 2008      FF-AR-09-052        12/22/08     N/A        N/A      We identified various
Financial                                                                  internal control and
Installation Audit                                                         compliance issues
– Business Mail                                                            related to managing
Entry Units                                                                customer accounts and
                                                                           eligibility; accepting,
                                                                           verifying, and clearing
                                                                           the mail; monitoring
                                                                           SPPS agreements and
                                                                           authorizations; and
                                                                           protecting Postal
                                                                           Service revenue.
                                                                           Although internal
                                                                           controls were generally
                                                                           in place and effective, a
                                                                           significant deficiency
                                                                           existed related to the
                                                                           acceptance of mail.
Fiscal Year 2007      FF-AR-08-131         3/19/08     N/A        N/A      We identified various
Financial                                                                  internal control and
Installation Audit                                                         compliance issues
– Business Mail                                                            related to managing
Entry Units                                                                customer accounts and
                                                                           eligibility; accepting,
                                                                           verifying, and clearing
                                                                           the mail; monitoring
                                                                           SPPS agreements and
                                                                           authorizations; and
                                                                           protecting Postal
                                                                           Service revenue.
Fiscal Year 2006      FF-AR-07-090         2/15/07     N/A        N/A      We identified various
Financial                                                                  internal control and
Installation Audit                                                         compliance issues
– Business Mail                                                            related to managing
Entry Units                                                                customer accounts and
                                                                           eligibility requirements;
                                                                           accepting, verifying,
                                                                           and clearing the mail;
                                                                           monitoring SPPS
                                                                           agreements and
                                                                           protecting Postal
                                                                           Service revenue; and
                                                                           following general
                                                                           operating procedures.
     Fiscal Year 2009 Financial Installation Audit –                                                               FF-AR-10-051
      Business Mail Entry Units


                 APPENDIX B: BUSINESS MAIL ENTRY UNITS AUDITED IN FY 2009

                                                                                                                             Non-
                                                                    FY 2008             OIG Report         Monetary        Monetary
           Unit Name           Location          Unit Type          Revenue              Number            Impact14        Impact14
1             xxxxx           xxxxxxxxx            BMEU              $32,813,797      FF-AR-09-119             $3,791                 $0
                                                 Associate
2           xxxxxxxxx       xxxxxxxxxxxx        Office (AO)15          2,203,871      FF-AR-09-070          2,041,675                  0
3            xxxxxx           xxxxxxxxx              AO                   159,961     FF-AR-09-075             11,529                  0
4           xxxxxxxxx       xxxxxxxxxxxx             AO                    82,774     FF-AR-09-015                    0                0
5           xxxxxxxxx        xxxxxxxxxxx             AO                   882,176     FF-AR-09-106                 298                 0
6            xxxxxx           xxxxxxxxx              AO                   264,528     FF-AR-09-086                    0                0
7             xxxx             xxxxxxxx            BMEU                3,032,393      FF-AR-09-157                    0                0
8            xxxxxx           xxxxxxxxx              AO                2,064,223      FF-AR-09-121             56,896                  0
9            xxxxxx           xxxxxxxxx              AO                    64,973     FF-AR-09-088                    0                0
10          xxxxxxxxx         xxxxxxxxxx           BMEU               28,370,710      FF-AR-09-168               9,246                 0
11           xxxxxx            xxxxxxxx            BMEU                5,502,615      FF-AR-09-208                   0          18,617
12           xxxxxxx         xxxxxxxxxxx           BMEU               98,646,676      FF-AR-09-022               5,851            1,316
13          xxxxxxxxx        xxxxxxxxxxx           BMEU                2,126,307      FF-AR-09-045                    0                0
14         xxxxxxxxxx       xxxxxxxxxxxx           BMEU               26,004,387      FF-AR-09-004                    0                0
                            xxxxxxxxxxxs,
15        xxxxxxxxxxxx           xx                  AO                   550,658     FF-AR-09-169                    0                0
16         xxxxxxxxxi       xxxxxxxxxxxx           BMEU              295,347,742     FF-AR-09-098R             86,700                  0
17           xxxxxx           xxxxxxxxxx             AO                   828,073     FF-AR-09-131               1,685            6,822
18           xxxxxx           xxxxxxxxxx             AO                   252,636     FF-AR-09-019                   0            6,191
19           xxxxxxx         xxxxxxxxxxx             AO                   352,985     FF-AR-09-113                    0                0
20         xxxxxxxxxx       xxxxxxxxxxxx             AO                   371,104     FF-AR-09-122                    0                0
21           xxxxxxx          xxxxxxxxxx           BMEU               49,502,190      FF-AR-09-091               2,523                 0
22           xxxxxxx         xxxxxxxxxxx           BMEU              113,385,508      FF-AR-09-184             16,243                  0
23           xxxxxx         xxxxxxxxxxxxx          BMEU               11,598,615      FF-AR-09-067                    0                0
24          xxxxxxxx          xxxxxxxxxx             AO                    54,893     FF-AR-09-120                    0           1,625
25         xxxxxxxxxxx      xxxxxxxxxxxx           BMEU                1,028,940      FF-AR-09-142                   0            1,043
                           xxxxxxxxxxxxx,
26        xxxxxxxxxxxxe          xx                BMEU              206,918,577      FF-AR-09-181                    0                0
27         xxxxxxxxxxx     xxxxxxxxxxx xx          BMEU                   186,722     FF-AR-09-180                    0                0
28         xxxxxxxxxx       xxxxxxxxxxxx             AO                   461,906     FF-AR-09-128            210,123                  0
                            xxxxxxxxxxx,
29        xxxxxxxxxxxxx          xx                  AO              144,934,299      FF-AR-09-049                    0                0
                            xxxxxxxxxxxx,
30        xxxxxxxxxxxx           xx                BMEU               56,321,625      FF-AR-09-161                    0                0
31         xxxxxxxxxx       xxxxxxxxxxxx           BMEU               53,500,491      FF-AR-09-043                    0                0
32           xxxxxx           xxxxxxxxxx           BMEU                4,455,468      FF-AR-09-078               1,392                 0
33           xxxxxx           xxxxxxxxx            BMEU               $2,055,920      FF-AR-09-220                  $0                $0
34        xxxxxxxxxxxx     xxxxxxxxxxxxxx            AO                    77,368     FF-AR-09-105                    0                0
35         xxxxxxxxxx      xxxxxxxxxxxxxx            AO                   138,168     FF-AR-09-175                    0                0

     14
        We included these amounts in the individual reports previously issued.
     15
        An AO is a post office that reports to a larger post office or is in the service area of a sectional center facility (SCF).
     It usually receives and dispatches all mail classes to and from the SCF.
     Fiscal Year 2009 Financial Installation Audit –                                       FF-AR-10-051
      Business Mail Entry Units

                                                                                                   Non-
                                                        FY 2008        OIG Report    Monetary    Monetary
         Unit Name          Location        Unit Type   Revenue         Number       Impact14    Impact14
                         xxxxxxxxxxxxxx
36        xxxxxxxx             xx             BMEU      101,036,472   FF-AR-09-068       2,120              0
37        xxxxxxx          xxxxxxxxx            AO         151,646    FF-AR-09-196          0               0
38        xxxxxxxx        xxxxxxxxxxx           AO          72,821    FF-AR-09-206          0               0
39          xxxx            xxxxxxxx          BMEU       50,079,840   FF-AR-09-141          0               0
40       xxxxxxxxx       xxxxxxxxxxxxx          AO         123,203    FF-AR-09-114       1,690              0
41        xxxxxxx         xxxxxxxxxxx         BMEU        2,592,240   FF-AR-09-023          0               0
42        xxxxxxx         xxxxxxxxxxx           AO         270,301    FF-AR-09-076     121,654       2,239
43         xxxxxx          xxxxxxxxxx         BMEU       18,950,035   FF-AR-09-003          0       39,754
44      xxxxxxxxxxx      xxxxxxxxxxxxx          AO         171,333    FF-AR-09-191          0               0
45          xxxx           xxxxxxxx             AO          69,209    FF-AR-09-013          0               0
46        xxxxxxx         xxxxxxxxxxx           AO       21,243,271   FF-AR-09-032          0       13,685
47      xxxxxxxxxxx      xxxxxxxxxxxxx        BMEU      165,908,283   FF-AR-09-183          0               0
48       xxxxxxxxx        xxxxxxxxxxxx          AO         869,648    FF-AR-09-063          0        6,829
49       xxxxxxxxxx      xxxxxxxxxxxxxx       BMEU         703,056    FF-AR-09-073      42,501              0
50        xxxxxxx         xxxxxxxxxxx         BMEU       82,866,145   FF-AR-09-127          0               0
51       xxxxxxxxxx      xxxxxxxxxxxxxx       BMEU       71,499,332   FF-AR-09-014       3,103              0
52       xxxxxxxxxx      xxxxxxxxxxxxx          AO        1,248,613   FF-AR-09-101          0               0
53       xxxxxxxxx7      xxxxxxxxxxxx           AO        1,959,568   FF-AR-09-176          0               0
                         xxxxxxxxxxxx,
54     xxxxxxxxxxxxr          xx                AO         976,354    FF-AR-09-011       1,120              0
55        xxxxxxxx         xxxxxxxxxx         BMEU       13,151,702   FF-AR-09-124          0               0
56       xxxxxxxxxs      xxxxxxxxxxxxxx       BMEU       71,902,550   FF-AR-09-090          0               0
57      xxxxxxxxxxx        xxxxxxxxxx         BMEU      224,393,075   FF-AR-09-182       7,566              0
58      xxxxxxxxxxx      xxxxxxxxxxxxx          AO         144,102    FF-AR-09-083          0               0
            Xxx               Xxx
59       xxxxxxxxxx      xxxxxxxxxxxxx          AO         111,272    FF-AR-09-059          0               0
60         xxxxxx          xxxxxxxxxx           AO        8,466,254   FF-AR-09-064          0        6,635
61         xxxxxk          xxxxxxxxxx         BMEU       87,962,578   FF-AR-09-158          0               0
                           xxxxxxxxxxx
62      xxxxxxxxxxt             xx            BMEU        1,782,485   FF-AR-09-036          0               0
                         xxxxxxxxxxxxx,
63     xxxxxxxxxxxxx           xxx            BMEU       29,145,414   FF-AR-09-136          0               0
                          xxxxxxxxxxxx,
64     xxxxxxxxxxxx            xxx              AO      117,759,277   FF-AR-09-093      18,590              0
65        xxxxxxx         xxxxxxxxxxx         BMEU       65,946,725   FF-AR-09-065     282,503              0
66         xxxxxx          xxxxxxxxxx         BMEU       19,394,550   FF-AR-09-025          0               0
67        xxxxxxxx        xxxxxxxxxxxx        BMEU      453,261,259   FF-AR-09-084          0               0
68        xxxxxxx         xxxxxxxxxxx         BMEU        5,277,961   FF-AR-09-057          0       26,692
69     xxxxxxxxxxxx      xxxxxxxxxxxxx          AO        $792,465    FF-AR-09-145         $0       $7,554
70      xxxxxxxxxxx      xxxxxxxxxxxxx        BMEU       10,934,079   FF-AR-09-118          0               0
71      xxxxxxxxxxx      xxxxxxxxxxxxx          AO        1,955,353   FF-AR-09-108      12,542              0
72         xxxxxl         xxxxxxxxxx            AO        2,126,743   FF-AR-09-044          0               0
           Xxxxx             xxxxxx
73        xxxxxxx         xxxxxxxxxxx         BMEU       70,504,962   FF-AR-09-174          0       23,924
     Fiscal Year 2009 Financial Installation Audit –                                           FF-AR-10-051
      Business Mail Entry Units

                                                                                                       Non-
                                                          FY 2008        OIG Report     Monetary     Monetary
         Unit Name         Location         Unit Type     Revenue         Number        Impact14     Impact14
                          Xxxxxxxxxxx
74       xxxxxxxxxx            xx               AO           2,255,843   FF-AR-09-033           0        1,971
75        xxxxxxxx       xxxxxxxxxxxxx        BMEU         10,421,033    FF-AR-09-082     720,867               0
76       xxxxxxxxxx       xxxxxxxxxxx         BMEU            708,121    FF-AR-09-148           0               0
77       xxxxxxxxxx      xxxxxxxxxxxxxx         AO            165,824    FF-AR-09-050           0               0
78        xxxxxxxx        xxxxxxxxxxxx        BMEU           5,529,284   FF-AR-09-162           0               0
79      xxxxxxxxxxx     xxxxxxxxxxxx xx       BMEU        124,040,602    FF-AR-09-188        3,584              0
80        xxxxxxxx        xxxxxxxxxxxx          AO            156,928    FF-AR-09-071           0        1,673
           xxxxxxx           xxxxxxx
81        xxxxxxx          xxxxxxxxxxx        BMEU        167,432,200    FF-AR-09-066           0               0
82       xxxxxxxxxx      xxxxxxxxxxxxxx       BMEU            146,323    FF-AR-09-074           0        3,229
83       xxxxxxxxxx      xxxxxxxxxxxxx        BMEU           8,711,942   FF-AR-09-026           0               0
84     xxxxxxxxxxxx      xxxxxxxxxxxxxx         AO            517,513    FF-AR-09-195           0               0
85       xxxxxxxxx       xxxxxxxxxxxxx          AO            145,102    FF-AR-09-144           0       42,000
86       xxxxxxxxx       xxxxxxxxxxxxxx       BMEU           1,194,634   FF-AR-09-017           0               0
87      xxxxxxxxxxx      xxxxxxxxxxxxx        BMEU         93,237,565    FF-AR-09-077           0               0
88         xxxxx           xxxxxxxxx          BMEU         10,920,987    FF-AR-09-187           0               0
89       xxxxxxxxxx       xxxxxxxxxxxx        BMEU           7,599,294   FF-AR-09-222           0               0
90       xxxxxxxxxx      xxxxxxxxxxxxxx       BMEU           9,930,052   FF-AR-09-099     448,189      515,340
91         xxxxxx          xxxxxxxxxx         BMEU         74,290,447    FF-AR-09-190        3,350              0
92        xxxxxxxx        xxxxxxxxxxxx          AO            205,593    FF-AR-09-080           0               0
93        xxxxxxx         xxxxxxxxxxx         BMEU         37,556,168    FF-AR-09-197           0               0
94         xxxxxx         xxxxxxxxxx       BMEU/DMU        39,366,962    FF-AR-09-170           0               0
                          Xxxxxxxxxxx
95     xxxxxxxxxxxxx           xx             BMEU         31,778,974    FF-AR-09-079           0               0
96       xxxxxxxxxx      xxxxxxxxxxxxx        BMEU           5,636,390   FF-AR-09-214           0               0
           Total                                        $3,482,295,236                  $4,117,331    $727,139
Fiscal Year 2009 Financial Installation Audit –                                                           FF-AR-10-051
 Business Mail Entry Units


                         APPENDIX C: DEFICIENCIES AND PROJECTIONS

Control Deficiencies Reported for FYs 2007-2009

                                                                  FY 2009             FY 2008              FY 2007
                                                                 Number of           Number of            Number of
                                                                 Sites with          Sites with           Sites with
                                                                  Finding             Finding              Finding

                                                               Sample Size =       Sample Size =        Sample Size =
      Description of Internal Control Deficiency                   96                  96                   101

        Mail Acceptance, Verification, and
               Clearance Procedures
The unit did not verify that the mailer’s sections of
the permit/business mail postage statement were                       63                  N/A                 N/A
completed. (Operational Attributes)
The unit did not complete the Postal Service
sections of the permit/business mail postage                          58                  N/A                 N/A
statement. (Operational Attributes)
                                                                                    25 (combined        21 (combined
The unit did not complete the Postal Service
                                                                                    financial and       financial and
sections of the permit/business mail postage                          55
                                                                                     operational         operational
statement. (Financial Attributes)16
                                                                                       controls)           controls)
                                                                                    25 (combined        21(combined
The unit did not verify that the mailer’s sections of
                                                                                    financial and       financial and
the permit/business mail postage statement were                       53
                                                                                     operational         operational
completed. (Financial Attributes)20
                                                                                       controls)           controls)
We observed the unit did not properly accept, verify,
and clear mail according to Postal Service                            44                  36                      38
instructions at the BMEU.20
The unit did not have or provide a scale for weight
                                                                                                         21 (at BMEU
verification, properly test the scale, or calibrate the               35                  23
                                                                                                         and/or DMU)
scale annually at the BMEU.17
The unit did not verify that the publisher/customer’s
sections of the Periodicals postage statement were                    32                  N/A                 N/A
completed. (Operational Attributes)
The unit did not complete the Postal Service section
for weight per copy on the Periodicals postage                        31                  N/A                 N/A
statement. (Operational Attributes)
                                                                                    13 (combined         9 (combined
The unit did not complete the Postal Service section
                                                                                    financial and        financial and
for weight per copy on the Periodicals postage                        26
                                                                                     operational          operational
statement. (Financial Attributes)20
                                                                                       controls)            controls)
                                                                                    14 (combined         7 (combined
The unit did not verify that the publisher/customer’s
                                                                                    financial and        financial and
sections of the Periodicals postage statement were                    23
                                                                                     operational          operational
completed. (Financial Attributes)20
                                                                                       controls)            controls)


16
     This is a key financial reporting control that will be tested in FY 2010.
17
     This key control will be tested under the mail acceptance and verification observation process in FY 2010.
Fiscal Year 2009 Financial Installation Audit –                                            FF-AR-10-051
 Business Mail Entry Units


                                                            FY 2009         FY 2008         FY 2007
                                                           Number of       Number of       Number of
                                                           Sites with      Sites with      Sites with
                                                            Finding         Finding         Finding

                                                          Sample Size =   Sample Size =   Sample Size =
     Description of Internal Control Deficiency               96              96              101
The unit did not properly close or refund balances
for inactive business mail or Periodicals (at an
                                                               27              48              53
additional entry) advance deposit accounts or
monitor refunds requested by customers.20
The unit did not post data from the permit/business
mail postage statement to the mailer’s account                 17              38              23
(PostalOne!) within a reasonable amount of time.20
The unit did not have or provide a scale for weight                                        21 (at the
verification, properly test the scale, or calibrate the        16              8          BMEU and/or
scale annually at the DMU.21                                                                DMU)
The unit did not use or maintain a Bypass Mail Log
or have a process in place to identify bypassed                13              13              16
mail.21
The unit did not post data from the Periodicals
postage statement to the mailer’s account                      11              27              13
(PostalOne!) within a reasonable amount of time.20
We observed the unit did not accept, verify, and
clear mail verifications according to Postal Service           11              7               5
instructions at the DMU.20
The unit did not utilize the random selection list and
MERLIN worksheets for selecting trays of mail to be
verified on MERLIN or always perform the MERLIN                9               17              10
verifications at the proper frequencies (at BMEU or
DMU).21
The unit did not attach or sign Postal Service (PS)
Form 3607, Weighing and Dispatch Certificate, to
                                                               7               4               6
the permit/business mail postage statement after
entering the data to PostalOne!.
The unit did not correctly record required
information from the permit/business mail postage              6               1               1
statement in PostalOne!.20

Statistical Projections for the FY 2009 Reported Nationwide Deficiencies

In support of the objectives, the audit team employed a stratified random sample of
BMEUs. The sample design allows statistical projection of the number of units with the
types of internal control deficiencies that were the subject of the audit. We made
separate projections for each category with internal control deficiencies. The audit
Fiscal Year 2009 Financial Installation Audit –                                                           FF-AR-10-051
 Business Mail Entry Units


universe consisted of 3,071 units with revenues over $50,000. We sampled 96 units as
a stratified attributes design further allocated to each of four revenue-based strata.18

We calculated the point estimate of the total number of deviations, as well as the
associated confidence interval. Based on the sample results, we projected the following
with a 95-percent confidence level.

                                                                 Statistical Projections
              Finding                         Lower Limit19           Point Estimate20             Upper Limit21
Mail Acceptance, Verification, and
                                              Units                     Units                     Units
       Clearance Procedures
The unit did not verify that the
mailer’s sections of the
permit/business mail postage                 1,965         64%         2,295         75%         2,626         86%
statement were completed.
(Operational Attributes)
The unit did not complete the Postal
Service sections of the
                                             1,835         60%         2,179         71%         2,523         82%
permit/business mail postage
statement. (Operational Attributes)
The unit did not complete the Postal
Service sections of the
                                             1,778         58%         2,124         69%         2,470         80%
permit/business mail postage
statement. (Financial Attributes)20
The unit did not verify that the
mailer’s sections of the
permit/business mail postage                 1,570         51%         1,943         63%         2,315         75%
statement were completed.
(Financial Attributes)20
We observed the unit did not
properly accept, verify, and clear
                                             1,265         41%         1,653         54%         2,041         66%
mail according to Postal Service
instructions at the BMEU.20
The unit did not have or provide a
scale for weight verification, properly
                                               742         24%         1,117         36%         1,491         49%
test the scale, or calibrate the scale
annually at the BMEU.21




18
   We statistically projected the number of units with internal control deficiencies. While we reported compliance
issues, we noted compensating controls that allowed us to conclude that, generally, internal controls were in place
and effective, except for the significant deficiency related to mail acceptance. These issues were not material to the
financial statements and did not affect the overall adequacy of internal controls considered necessary for a financial
statement audit. This appendix includes deficiencies that we reported only at six or more sites related to mail
acceptance.
19
   The lower limit is the least estimated number of deviations (units) in which the condition may exist. When the lower
bound is less than the number observed in the sample, the observed number is presented in the table as the lower
limit.
20
   The point estimate is the estimated total number of deviations (units) in which the condition may exist.
21
   The upper limit is the greatest estimated number of deviations (units) in which the condition may exist.
Fiscal Year 2009 Financial Installation Audit –                                              FF-AR-10-051
 Business Mail Entry Units


                                                           Statistical Projections
                                                      19
             Finding                        Lower Limit       Point Estimate20        Upper Limit21
The unit did not verify that the
publisher/customer’s sections of the
                                            964      31%       1,354      44%        1,744        57%
Periodicals postage statement were
completed. (Operational Attributes)
The unit did not complete the Postal
Service section for weight per copy
                                           1,041     34%       1,429      47%        1,817        59%
on the Periodicals postage
statement. (Operational Controls)
The unit did not complete the Postal
Service section for weight per copy
                                            980      32%       1,362      44%        1,744        57%
on the Periodicals postage
statement. (Financial Attributes)20
The unit did not verify that the
publisher/customer’s sections of the
                                            549      18%        914       30%        1,279        42%
Periodicals postage statement were
completed. (Financial Attributes)20
The unit did not properly close or
refund balances for inactive
business mail or Periodicals (at an
                                            397      13%        708       23%        1,020        33%
additional entry) advance deposit
accounts or monitor refunds
requested by customers.20
The unit did not post data from the
permit/business mail postage
statement to the mailer's account           433      11%        678       22%        1,011        33%
(PostalOne!) within a reasonable
amount of time.20
The unit did not have or provide a
scale for weight verification, properly
                                             61       2%        175       6%         290           9%
test the scale, or calibrate the scale
on annually at the DMU.21

The unit did not use or maintain a
Bypass Mail Log or have a process           232       8%        542       18%        852          28%
in place to identify bypassed mail.21

The unit did not post data from the
Periodicals postage statement to the
                                            171       6%        446       15%        720          24%
mailer's account (PostalOne!) within
a reasonable amount of time.20
We observed the unit did not
accept, verify, and clear mail
                                             30       1%        121       4%         212           7%
verifications according to Postal
Service instructions at the DMU.20
Fiscal Year 2009 Financial Installation Audit –                                             FF-AR-10-051
 Business Mail Entry Units


                                                            Statistical Projections
                                                      19
             Finding                        Lower Limit        Point Estimate20       Upper Limit21
The unit did not utilize the random
selection list and MERLIN
worksheets for selecting trays of
mail to be verified on MERLIN or             14      0.5%        101       3%         189         6%
always perform the MERLIN
verifications at the proper
frequencies (at BMEU or DMU).21
The unit did not attach or sign PS
Form 3607 to the permit/business
                                             94       3%         336       11%        578        19%
mail postage statement after
entering the data to PostalOne!.
The unit did not correctly record
required information from the
                                             37       1%         262       9%         487        16%
permit/business mail postage
statement in PostalOne!.20
